No. 20-843

Jn 'Qtbt 6uprtmt Qeourt of 'Qtbt mnittb 6tattj
New York State Rif/,e & Pistol Association, Inc., Robert Nash, Brandon Koch

v.

Keith M. Corlett, in His Official Capacity as Superintendent of
New York State Police,
Richard J. McNally, Jr., in His Official Capacity as Justice of the
New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer County
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That, on this, the 21st day of September,
2021, I filed the foregoing with the United States Supreme Court electronically and
forty (40) paper copies via UPS Ground Transportation. I further certify that the
foregoing was served via electronic mail and three (3) copies of the same, via UPS
Ground Transportation, to the following:
Jennifer L. Clark
Andrea Oser
Assistant Solicitor General
New York State Office of the Attorney General
Division of Appeals & Opinions
The Capitol
Albany, NY 12224
(518) 776-2024
Jennifer.Clark@ag.ny.gov
Andrea.Oser@ag.ny.gov
Anisha Dasgupta
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005
Anisha.Dasgupta@ag.ny.gov

Counsel for Respondents

Paul D. Clement
Counsel of Record
Erin E. Murphy
Kasdin M. Mitchell
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners

/~~

Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249- 7770 - Telephone
(804) 249-7771 - Facsimile

For:
JOHN J. KORZEN

Counsel of Record

WAKE FOREST UNIVERSITY SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC

Post Office Box 7206
Winston-Salem, NC 27109
(336) 758-5832
korzenjj@wfu.edu
CELIA MEZA

Corporation Counsel of the City of Chicago

MYRIAM ZRECZNY KASPER

Deputy Corporation Counsel
SUZANNE M. LOOSE

Senior Counsel

REBECCA HIRSCH

Assistant Corporation Counsel
2 North LaSalle Street, Suite 580
Chicago, IL 60602
(312) 744-8519
suzanne.loose@cityofchicao.org
Counsel for Amici Curiae
Signed and subscribed before me on this the 21st day of September, 2021.

